Fiscal Year 2007 Audit Reports

Physical Inventory of ACELA High-Speed Rail Parts

Audit Report Number Report 215-2006, 01/24/2007 Semiannual Report #35

Identified Costs, Savings, or Funds Put to Better Use: $222,186

The OIG assisted the Materials Management Department in counting the Acela “parts” inventory. The
OIG also performed a pricing review of Bombardier/Alstom OEM invoices for Acela spare parts. Based
on the audit of vendor invoices, the OIG identified $222,186 in questioned costs.

Recommendation: The OIG recommended that management seek recovery of all costs and withhold 10
percent from the purchase order.

Management Response: Management agreed to recover the costs and withhold ten percent from the
purchase order.


Union Pacific Audit

Audit Report Number 407-2004, 03/07/2007 Semiannual Report #35

Identified Costs, Savings, or Funds Put to Better Use: $144,659

The OIG reviewed the Union Pacific Railroad Company (UP) billings and identified a net adjustment of
$144,659. The OIG found erroneous billings in 10 of the 14 items selected for audit, $230,282 overbilled
and $85,623 under-billed for a net total of $144,659 due Amtrak.

Recommendation: The OIG recommended that management seek recovery of all costs.

Management Response: Management and UP agreed with the $144,659 amount due.


Review of Locomotive Fuel Charges Processed through eTrax

Audit Report Number Report 203-2005, 05/08/2007 Semiannual Report #36

Identified Costs, Savings, or Funds Put to Better Use: $105,000

The OIG audited the locomotive fuel purchases processed through eTrax to determine the level of
compliance with Amtrak’s policies and procedures. The audit disclosed varying degrees of


                                                   1
noncompliance with locomotive fuel deliveries, approvals and the payment process resulting in more than
$105,000 in duplicate or erroneous payments to fuel vendors in the first half of FY 2006.

In addition, under agreements with railroads where Amtrak rents locomotives from those railroads, the
rental rate paid by Amtrak includes locomotive fuel. During the course of the OIG review, the OIG
identified 26 instances where Amtrak paid local fuel vendor charges for the locomotives and did not seek
reimbursement from the railroad.

Recommendation: The OIG recommended that:
 Locomotive fuel policies and procedures reflecting management’s current needs and controls should be
  widely communicated and posted.
 Fuel Coordinators or other designated individuals should ensure that fueling sites receive the vendor
  receipts (meters, tickets, etc.) called for in the contracts and that data is entered in accordance with
  eTrax instructions.
 The Fuel Contract Manager should be enlisted to bring fueling sites in compliance, including
  monitoring the quality of the fuel data entries on an exception basis.
 The Fuel Contract Manager post relevant material on the eTrax home page. Such fueling could be
  designated as “fuel irregularities” in the eTrax instructions and receive better visibility.
 All fuel contracts when renewed should be treated consistently. All state or local taxes not payable by
  federal entities should be challenged based on Amtrak’s tax exempt status. All taxes requiring to be
  reimbursed need to be well documented by the fuel vendors, incorporated in the contract, and made part
  of the contract file.

Management Response: Management agreed that an approved fuel policy be posted and communicated,
and that unbilled fuel charges be billed to the appropriate railroads.


CSX New York High Speed Line Agreement

Audit Report Number 212-2006, 06/07/2007 Semiannual Report #36

Identified Costs, Savings, or Funds Put to Better Use: $64,037

The OIG evaluated the accuracy and reasonableness of billings pertaining to the use of Track 2 of the
North East Corridor (NEC) by CSX Corporation, Inc., freight trains. The OIG identified $64,037 that
CSX owed to Amtrak as a result of CSX freight trains using portions of dedicated Amtrak tracks without
notifying Amtrak or paying for such usage.

Recommendation: The OIG recommended that management seek recovery of all costs.

Management Response: Management and CSX agreed with the $64,037 amount due Amtrak.




                                                    2
Proposed Costs to Manufacture and Install Escalators at New York Penn Station

Audit Report Number 222-2006, 07/27/07 Semiannual Report #36

Identified Costs, Savings, or Funds Put to Better Use: N/A

The OIG completed an audit of the proposed cost of $418,000 to manufacture and install an escalator at
New York Penn Station. The contractor agreed to an actual cost audit on the first escalator to determine
the cost reasonableness of future work at New York Penn Station, which needed 14 escalators replaced.

The OIG determined the proposed costs and pricing data was reasonable. However, the proposal included
an unsupported labor burden contingency cost that is generally unallowable under the Federal Acquisition
Regulation System.

Recommendation: The OIG recommended the labor burden contingency cost be disallowed unless it
could be supported by the contractor’s cost records.

Management Response: Management agreed with the OIG findings and requested that the contractor
support the labor contingency rate. The contractor disagreed. After several negotiations, the contractor
agreed with eliminating $12.50 from the hourly labor rate. However, the contractor wanted additional
overhead to offset the high material cost. The contractor stated in the negotiating meetings that material
costs were rising due to the value of the exchange rate (Euro). Management allowed the contractor to
increase the overhead rate of material costs.


Chemcoa Low Foam Cleaner Contract

Audit Report Number 205-2007, 08/29/07 Semiannual Report #36

Identified Costs, Savings, or Funds Put to Better Use: $11,000

The OIG completed an audit of a contract for the purchase of low foam cleaner for air brake cleaning
machinery. The audit objective was to verify the accuracy and acceptability of the cost and pricing data
shown on the contractor’s estimated cost breakdown. This was a non-competitive, two-year firm fixed-
price contract.

As a result of the audit, the OIG questioned $1.29 and $4.88 of unsupported costs of the proposed total
cost per gallon. This occurred because of inconsistent costing methodologies, unallowable costs under the
Federal Acquisition Regulations (FAR), and incorrect account coding. Chemcoa failed to provide
supporting documentation covering 64 percent of various cost components and the proposal included a
profit margin which the OIG considered excessive.

Recommendation: The OIG recommended Management use the OIG audit report to negotiate a
settlement with the contractor.

Management Response: Management agreed and negotiated a $0.18 per gallon reduction in
cost resulting in a $11,000 savings per year.


                                                     3
